;

State ofNew York
Court ofAppeals
. Decided and Entered on the
eighteenth day of February, 2021
Present, Hon. Janet DiFiore, ChiefJudge, presiding.

'S.

Mo. No. 2020-832
The People &c. ex rel. Pamela Roth, on behalf
of Roy Taylor,
Appellant,
v.
Cynthia Brann, &c.
Respondent.
9

I

.

Appellant having appealed and inoved for leave to appeal to the Court of

.

Appeals in the above cause;
Upon the papers filed and due deliberation, it is
•

i

'

» •»

ORDERED, on the Court's own motion, that the appeal is dismissed, without
costs, upon the ground that the order appealed from does not finally determine the
'

proceeding within the meaning of the Constitution; and it is further
ORDERED* that the motion for leave to appeal is dismissed upon the ground that .
the order sought to be appealed from does not finally determine the proceeding within the
meaning of the Constitution.

l

Heather Davis
Deputy Clerk of the Court

;

r
!
i

<
!

I

)

i

•.

AUG u B 4UHf

date
hereby certify that the foregoing
paper Is a irue copy of the original
thereof, filed in my office.
i

SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF NEW YORK: PART 77

-x

THE STATE OF NEW YORK
Ex Rel. PAMELA ROTH, ESQ
On Behalf Of ROY TAYLOR (

County Clerk and Cl&k i
Supreme Court New York
OFFICIAL USE

JUDGMENTAND
DECISION
Petitioner,
Index No. 19-100885

r against

SC|D No. 30119-2019

CYNTHIA BRANIsl, Commissioner,
New York City Department of Correction,

Ind. Nos. 5342/15,
1614/17, 3065/17 arid
Docket No. 28311 C/18

Respondent.
X
MICHAEL J.OBUS.J.:

Petitioner, now represented by counsel, filed a pro se habeas corpus writ
challenging the bail set by Supreme Court Justice Curtis Farber in the above-captioned
cases. For the following reasons, the petition is denied and the writ dismissed
Petitioner’s writ arises from a series of arrests. In the first, which led to Indictment
Number 5342/15, petitioner is charged with criminal possession of a controlled substance
in the third degree, criminal possession of a weapon in the second degree and lesser
crimes. He apparently posted the bail set in that case, $50,000 cash or bond. On july7, I
2017, petitionerwas re-arrested and subsequently charged in Indictment Number 1614/17
with two Counts of criminal possession of a controlled substance in the third degree and [
a lesser offense. Bail on that second case was set at $10,000 cash or bond at Criminal
Court arraignment, and on May 7 or 8,2017, petitioner posted - or in the first case, may
have re-posted - bail in both cases.
On August 13,2017, petitioner was arrested on a third set of charges, including two
counts Of criminal possession of a controlled substance in the third degree and lesser
Crimes. While Criminal Court (Joanne Watters, J.) set bail in the amount of $75,000 bond

m 0 8 2019

DATE
‘hereby certify that the fagfa

paperfe a true copy of the original
thereof, filed in my office.

*

■

or cash, when petitioner appeared on September 13,2017, before '' "4$,
for arraignment on the indictment, Number 3065/17, Justice Wiley set inffalZ
OFFlCMUfSe3****”

three indictments at $300,000 cash or bond.
Petitioner thereafter brought a habeas corpus proceeding challenging the. bail as
excessive. Though evidently denied by Supreme Court, on November 9, 2017, the
Appellate Division, First Department, issued an order setting bail on the first case,
Indictment 5342/15, at the original $50,000; on the second case, Indictment 1614/17, at
the original $10,000; and on the third case, Indictment 3065/17, in a new amount,
$125,000 cash or bond. Petitioner subsequently posted, or re-posted, bond in each case
and was again released from custody.
On June 28, 2018, petitioner was arrested a fourth time after an automobile
accident, and was initially charged with criminal possession of a controlled substance in
the third degree, operating a motor vehicle while ability impaired by drugs, aggravated
unlicensed operation of a motor vehicle in the third degree, and leaving the scene of an
accident without reporting. Once some of the suspected controlled substances proved to
be inert^ however, the felony possession charge was reduced to the seventh degree
mjsdemeanor based on the simple possession of heroin and fentanypQn July 3.2018
the CPL180.80 date, Criminal Court (Charlotte Davidson, J.), granted the People's request
to set bail on the misdemeanor case at $5,000 cash or bond.
Finally, on July 18,2018, the parties appeared before Justice Curtis Farber on all
three felonies, justice Farber. who had recently (July 9"*) allocuted petitioneron the latter’s
request to proceed 2£0 se. entertained the People's request to remand petitioner,

After

hearing from the parties, Justice Farber left intact the $50,000 bail left undisturbed by the
2

nvv> v v fcw
OATg
i hereby certify that the foregoing
paper Is a true copy of the original .
'hereof* filed in my office.

./

Appellate Division on Indictment Number 5342/15 and the $125,000
Indictment Number3065/17, but raised the bail on the remaining Indictmen^jjg^g^^^^
OFFICIAI IJSFl

$10,000 to $50,000 cash or bond, subject to surety review.

Whether petitioner’s fifg g§ writ seeks a reduction of the bail set in all four cases, I
or only that most recently changed by Justice Farber, is unclear, but his attorney appeared
to focus only on the latter, without challenging, for example, the $5,000 bail set on the
misdemeanor case. ViewingthebailsetonlndictmentNumber1614/17aloneortogether
v^h that set in all four cases, however, this Court concludes that there has beenno abuse
of discretion.
Petitioner’s writ does not entitle him to a jig n,pyo bail determination or substitution
of discretion Or opinion. People ex re| Klelp v. Krueger. 25 NY2d 487, 500-01 (1988);

Efifififeox rel.Kubyv. Mgcatt, 96 AD3d 607,608 (1* Dept.), HdgQ, 19 NY3d 813 (2012);
E8gplS.mel.Htmt v. WeidfiO, 161 AD2d 475 (1- Dept.), see. d*L. 76 NY2d 703 (1990).
To the contrary, “the scope of review upon a habeas corpus petition following a denial of
ban ‘is quite narrow, being confined to a consideration of whether the denial constitutes an
abuse of the court’s statutory discretion pursuant to CPL 510.30

or a violation of a

constitutional standard prohibiting excessive bail or its arbitrary refusal'.” People ay
Sega! v. Sslafl, 182 AD2d 389, 390 (1* Dept. 1992), Quoting People

rrf

JOteldefl. .SUBEL 161 AD2d at 476; SSSSSI People ex rel. Ktihv y. Merritt suota

v.
96AD3d

607.
The relevant factors in setting the kind and degree of control or restrict!'

on necessary
to assure a criminal defendant’s return to court are set forth in CPL 510.30(2)(a)
. They
include the defendant's “character, reputation, habits and mental
condition," (2)(a)(i);
3

DATE
AUG
' herehr tw% that (he fcregoRto

U S 2019

ssssgas?*** ■
A

,*T'

any in the community,"(2)(a){iii); “criminal record,” (2)(a)(iv); in certain

the .
Jouh

juvenile record, (2)(a)(v); “previous record if any in responding to couit appearances when
required or with respect to flight to avoid criminal prosecution,” (2)(a)(vi); when the case
involves a crime against a family or household member, any violation of an order of
protection or “history of use or possession of. a firearm," (2)(a)(vii); “the weight of the
[ evidence against him in the pending criminal action or any other factorindicating probability
or improbability of conviction," (2)(a)(viii), and “the sentence which may be ...

imposed

upon conviction,” (2)<a)(ix). “Where the record shows that the bail court considered the
factors enumerated in CPL 510.30(2)(a), and the ‘denial is supported by the record, it is
an exercise of discretion resting on a rational basis and thus beyond correction in habeas
corpus.1” Efifipfe ex rel, Kuby v. MSDitt. SUBS. 96 AD3d at 608-08 (citations omitted).
Here, the minutes of July 9 and 16,2018, establish that Justice Farber was aware
of the facts relevant to.the statutory criteria of CPL 510.30(2)(a). Those facts included
petitioner's educational background, three years of college, age, now about 58, and past
clerical and custodial employment. It also included his prior criminal record, which included
a first degree manslaughter conviction in 1883, a 2009 Class D drug felony, a20i3 Class
B drug felony, and convictions - and thus potential ties - in two other states, justice
Farber was also aware, from petitioner's NYSID or “rap" sheet alone, that petitioner had
five prior bench warrants, and had been the subject of probation and parole revocations:
While petitioner claimed in court that he did not drive the car or possess the narcotics and
packaging paraphernalia involved in the misdemeanor case, the three felony cases were
supported, at the least, by evidence found sufficient by the respective grand juries and
•;

■

4

DATE

SHS*082019
reviewing courts. The final factor that would have been apparent
potential sentence, also weighs against petitioner, who faces mandator^Bte^enteiw^l,
and possible consecutive terms, as a predicate felon.

^'al use T

In summary, Justice Farber left intact the precise bail set by the Appellate Division
on two of the three cases before him, $50,000 on Indictment 5342/15, and $125,000 on
| Indictment 3065/17. The $5,000 bail set by Criminal Court on the substantial misdemeanor
charges - bail petitioner does not appear to directly challenge - was not an abuse of
discretion. Justice Farbefs decision to raise bail on the remaining case, Indictment
1614/17, from $10,000 to $50,000 following petitioner's fourth arrest was likewise not an
abuse of discretion, and is therefore “beyond correction in habeas corpus.” People by r»i
LaZSC V. WsiriSO, 79 NY2d 839, 840 (1992). guotino People ex rel Parker u Hasenauer
62 NY2d 777,779(1984).
Finally, defense counsel’s requestihat this Court review another Judges* CPL 30.30
calculation of 77 includable days, and dismiss one or more of the cases, is misplaced.
That issue can be raised on direct appeal and is not cognizable on a habeas writ. People
I l ex rel, Johnson v. Lisy, 243 AD2d 915 (3rd Dept. 1997), lv. den. 91

niyph

ann 1898);

EfiPPle ex rel. Best v. VaygtlO, 239 AD2d 204(1* Dept). dism'ino lv. to aoo 90 NYOri q?.i

11(1897); EgopJe ex re!, Kitchen v. White, 158AD2d437 (1** Dept), SEE, SlSIL 76 NY2d 702
(1990).
The petition is denied and the Writ is dismissed.
This opinion is the judgment and decision of the Court.
Dated: July 16, 2019
New York, New York

J.S.Cj
5

HOW. MiCHAHj. 06US

At a Term of the Appellate Division of the Supreme
Court held in and for the First Judicial Department in
the County of New York on March 19, 2020.
Present

Hon. Rolando T. Acosta,
Dianne T. Renwick
Barbara R. Kapnick
Angela M. Mazzarelli,

Presiding Justice,
Justices.

X
In re The People of the State of New York,
ex rel. Pamela Roth, on behalf of Roy
Taylor,
Petitioner-Appellant,
-againstCynthia Brann, Commissioner,
Nev; York City Department of Correction,
Respondent-Respondent.
X

M-86
M-8643
Index No. 100885/19
Ind. Nos. 5342/15
1614N/17
3065/17

Petitioner-appellant having moved by separate motions for
reargument and renewal (M-86) and/or, in the alternative, for
reargument or leave to appeal to the Court of Appeals (M-8643),
from the decision and order of this Court, entered on November
12, 2019 (Appeal No. 10497, M-7499),
Now, upon reading and filing the papers with respect to the
motions, and due deliberation having been had thereon,
It is ordered that the motions are denied in all respects.
ENTERED:

CLERK

V

:

ftupretne Court of tje fetatc of Jieto gnrfe
Appellate JBtoision, Jfiwt STubfcfoI department
Present - Hon. Rolando T. Acosta,
Dianne T. Renwick
Barbara R. Kapnick
Angela M. Mazzarelli,
In re The People of the State of New
York, ex rel. Pamela Roth, on behalf of
Roy Taylor,
Petitioner-Appellant,
-against-

Presiding Justice,

Justices.
Motion No.
IndexNo.
Ind. Nos.
Case No.
CONFIDENTIAL

2020-04016
100885/19
5342/15
1614N/17
3065/17
2019-03948

Cynthia Brann, Commissioner, New
York City Department of Correction,
Respondent-Respondent.
Petitioner-appellant having moved for renewal and/or reargument of an order of
this Court, entered March 19, 2020 (M-86, M-8643) which denied his motions for
renewal/reargument of or, in the alternative, for leave to appeal to the Court of Appeals,
from the decision and order of this Court, entered November 12,2019 (Appeal No.
10497; M-7499),
'
Now, upon reading and filing the papers with respect to the motion, and due
deliberation having been had thereon,
Itis ordered that the motion is denied.
ENTERED: January 21, 2021

Susanna Molina Rojas
Clerk of the Court

r-'

'4 <v

£X

Supreme Court of the State of New York
Criminal Term
New York Coimty
Part 77

Writ of Habeas Corpus
The Slate of New York
exrel.
on behalf of
ROY TAYLOR

County Clerk and dork otfhe
Sufreme Court New 'te«t®9dnt
OPFtCWLttse

SOD #: 30119-2019
Petitioner
vs.

Index #: 19-100885

CYNTHIA BRANN, Commissioner of NYC
Department of Corrections,
Respondent

DATE: JULY 2, 2019

a
Ordered that upon the papers submitted, this petition is
I

1 GRANTED

| txfDENIED AND THE WRIT IS DISMISSED

)ate:

' rjlIL 16 2M8

Hon.

AUG 0 8 2019

DATE
i hereby certify that the foregoing
paper is a true copy of the original
thereof, filed in my office.

Mm®
HOH. MICH

i

J.OBUS

Additional material
from this filing is
available in the
Clerk's Office.

